           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  THE SOCIAL SECURITY ADMINISTRATION’S
            COLLECTION OF
     COURT-ORDERED RESTITUTION



    March 2007       A-02-06-26019




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      March 2, 2007                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Collection of Court-ordered Restitution
           (A-02-06-26019)


           OBJECTIVE

           Our objective was to determine the effectiveness of the Social Security Administration’s
           (SSA) efforts to collect overpayments related to court-ordered restitution.

           BACKGROUND

           Courts may order individuals convicted of Social Security fraud to pay SSA restitution
           for illegally obtained funds in addition to any fees the court assesses. Between
           October 1, 2003 and September 30, 2006, the courts ordered 1,939 individuals to pay
           SSA approximately $65 million. Our September 30, 2006 Semiannual Report to
           Congress reported that SSA had received approximately $5 million of the court-ordered
           restitution—approximately 8 percent of the total amount due.

           The Department of Justice (DoJ) collects payment of Federal debts, including court-
           ordered restitutions, through its Financial Litigation Unit (FLU). 1 The FLU litigates and
           enforces debt collection for Federal agencies. The FLU may impose collection efforts,
           such as garnishment of wages, offset of Federal tax refunds and benefits, and property
           liens.

           SSA’s Program Operations Manual System (POMS) defines the policy for overpayment
           recovery after a fraud conviction. 2 When ordering restitution for a fraud case involving
           SSA, courts will generally include the funds that must be repaid to SSA and may also
           include additional fines and penalties above the overpayment due SSA. SSA is not
           authorized to seek restitution of fines or penalties imposed by the court. According to
           POMS, the convicted person’s liability is limited to the incorrect benefits he or she
           1
            28 C.F.R. § 0.171(b); United States Attorneys Manual §§ 3-9.100 and 3-9.120; and Executive Office for
           United States Attorneys Resource Manual, Title 3.101, Designation of Assistant United States Attorney
           Responsible for Financial Litigation.
           2
               SSA, POMS, GN 02201.055.
Page 2 - The Commissioner


received (as determined by SSA) plus any received as a representative payee. In
overpayment or follow-up notices to the convicted person, only the amount of the
overpayment should be requested. 3

According to POMS, 4 SSA staff should apply regular adjustment and recovery policies,
with few specific exceptions, 5 when recovering overpayments based on a fraud
conviction. After the court issues a judgment and commitment order, the Office of the
Inspector General’s (OIG) Office of Investigations (OI) receives copies of the order and
forwards a Form OI-68, Report of Court-Ordered Restitution/Judgment Form, to the
court administrator and OI’s Enforcement Operations Division. The Enforcement
Operations Division forwards the Form OI-68 to SSA Debt Management in Philadelphia
and the Regional Coordinators located in the servicing regional offices. During the
period of our review, this was a paper process; it is being converted to an electronic
process.

According to POMS, SSA should take the following steps to recover overpayments after
a fraud conviction.

•     Send an overpayment notice, if one has not already been sent, to the responsible
      party for the full amount of the overpayment, as determined by SSA, and explain
      waiver rights, where appropriate, in accordance with POMS guidance.

•     Diary the Recovery of Overpayments Accounting and Reporting (ROAR) to review
      the individual’s record in 90 days or until the month before the end of the
      probationary period, whichever comes first.

•     Review the ROAR as scheduled to ensure the individual is making restitution in
      accordance with the court order.

•     If no payment has been made during the quarter, or monthly payments are past due
      by 60 or more days, report the case to the Integrity Branch/Integrity Staff (IB/IS),
      which will then notify the court and OIG that the person convicted of fraud is not
      fulfilling the terms of his/her probation.




3
    SSA, POMS, GN 02201.055 A.
4
    Id.
5
  According to POMS, if the court addresses repayment of only the convicted person's debt, fails to
mention restitution, or specifies a figure less than the full amount of the overpayment, the convicted
person's liability is limited to the incorrect benefits he or she received (as determined by SSA) plus any
received as a representative payee. Regular adjustment and recovery policies apply. If the court orders
the convicted person to repay not only his/her own overpayment but also that of any auxiliary who was
overpaid as a result of the convicted person's action, SSA must first attempt recovery from the auxiliaries.
If recovery from the auxiliaries is waived, SSA will seek recovery from the convicted person. SSA, POMS,
GN 02201.055 A.
Page 3 - The Commissioner


•   If restitution payments are being made timely, schedule another review in 90 days to
    determine whether restitution payments are being made to SSA as ordered.
                  6
Additionally, POMS indicates, subject to certain exceptions, that any benefit payments
that become due after conviction must be withheld until the overpayment is recovered.

To meet our objective, we reviewed court-ordered restitution reported by the OIG for
Fiscal Year (FY) 2004 to determine SSA’s success in collecting the associated
overpayment funds as of October 2006. In FY 2004, 700 individuals were ordered to
repay SSA $24,309,652. Of these 700 cases, we reviewed the 488 with a restitution
amount of $10,000 of more, totaling $22,925,610, to determine whether overpayments
related to court-ordered restitution were posted to individual records and repayments
were being made. We also reconciled SSA’s recorded cases to those recorded with
the DoJ.

RESULTS OF REVIEW
The effectiveness of SSA’s efforts to collect overpayments related to court-ordered
restitution can be improved. We found that SSA had a record of the overpayment
related to a court-ordered restitution and was actively receiving repayment from 82 of
the 488 individuals we reviewed. SSA had a record for another 259 individuals, who
collectively were ordered to repay $12 million in restitution, which included
overpayments, fines or penalties, but repayments of the related overpayments were not
being made at the time of our review. We found no record of either an overpayment or
repayment documented in SSA’s electronic systems for 147 of the 488 individuals
convicted of fraud and ordered to repay restitution to SSA. These 147 individuals were
ordered by courts to repay over $7 million in restitution, which included overpayments,
fines and penalties. In addition, we found that 53 of the 147 cases unrecorded in SSA’s
systems were also not recorded on DoJ debt collection records. Lastly, our review
found that SSA staff lacked updated procedures regarding how to recover
overpayments related to court-ordered restitution.

Recording of Overpayment After Fraud Convictions

As part of our review, we determined whether there was any record of the overpayment
related to the fraud conviction or collection activities for the 488 individuals convicted of
defrauding SSA in SSA’s electronic systems. We reviewed the Master Beneficiary
Record (MBR), ROAR, Payment History Update System (PHUS), Supplemental
Security Record (SSR) or SSID. We concluded that SSA had a record of the
court-ordered restitution if the convicted individual’s MBR, ROAR, PHUS, SSR or SSID
indicated OIG or DoJ involvement, fraud, an overpayment, or any other indication of a
court-ordered restitution. Additionally, we searched any related record, including a

6
 SSA, POMS, GN 02201.055 B.2. If the debtor is deceased and the estate is less than the overpayment
amount, recovery is limited to the amount of the estate. Similarly, if a U.S. Attorney (or Central Justice)
accepts a compromise settlement, POMS directs acceptance of the settlement as full payment of the
debt.
Page 4 - The Commissioner


victim’s record, if the convicted individual’s record had any information on the victim’s
name and/or SSN.

We found evidence of a court-ordered restitution or the related overpayment for 341 of
the 488 individuals. (The 341 individuals consisted of the 82 individuals with an
overpayment recorded in SSA’s systems who were actively repaying the Agency at the
time of our review and the 259 individuals who were in SSA’s systems, but not making
repayments.)

We were unable to find any evidence in SSA’s records for 147 individuals who were
ordered by courts to collectively repay SSA $7,082,286 in restitution, which included
overpayments, fines or penalties. We found no evidence the overpayments associated
with these records were being collected or SSA staff had knowledge that these
individuals had been ordered by the courts to repay SSA funds. Accordingly,
overpayments related to court-ordered restitution were not being recorded, as required
by POMS.

Without a reference to the fraud conviction, court-ordered restitution, or the related
overpayment in the record of an individual convicted of defrauding SSA, SSA staff do
not have the information necessary to properly manage such cases or pursue the
overpayment. Additionally, staff will not have at their disposal important information
that could affect future actions. For example, staff would have no knowledge of past
Social Security fraud when a person previously convicted of defrauding the Agency
applies to be a representative payee for another claimant.

We asked SSA staff involved in recovering the overpayments related to court-ordered
restitution cases why we were unable to find these cases in SSA’s systems. SSA staff
stated that unrecorded cases might be recorded under the victim’s record, rather than
the convicted individual’s or debtor’s record. However, in our work, we searched any
related record that was referenced in the convicted person’s record, including a victim’s
record, to confirm if we had any information on the victim’s name and/or Social Security
number (SSN). In most cases, there were no cross-references to lead us to any other
record.

Additionally, SSA staff stated the courts forwarded some payments to SSA with no SSN
indicated, making it impossible to determine which account should be credited. These
funds are deposited into SSA’s trust fund, but not attributed to any individual’s record.
We found that limited coordination existed between SSA and DoJ staffs. Such
coordination by SSA staff is not required by the POMS.
Page 5 - The Commissioner


Recovery of Overpayment After Fraud Conviction

We found that 341 of the 488 court-ordered restitution cases we reviewed were
recorded in SSA’s systems. Once we determined a case was recorded, we then
examined the payment status of the related overpayments. A summary of our analysis
is presented in the following table.

              Court-ordered Restitution Recorded in SSA’s Systems
 Case Status                 Number of        Dollar Amount        Dollar Amount
                              Cases           of Restitution        Uncollected
 No payments made               92             $4,411,700           $4,411,700
 Some payments                 167               7,559,811            6,846,389
 made, but not
 currently being made
 Active payments                 82              3,871,813             2,931,415
 being made
 Total                          341            $15,843,324           $14,189,504

As the table illustrates, no payments were made for 92 cases. Partial payments were
made for 167 cases, but payments on those cases were not being made at the time of
our review. Agency staff indicated that some convicted individuals initially entered into
installment payment agreements with SSA but then failed to continue meeting the
obligations outlined in the agreements. For example, an individual may make a
payment to demonstrate good will in front of the court but not make subsequent
payments after sentencing. Staff noted that overpayment letters are often ignored, and
they felt they had little recourse in many of these situations.

In total, SSA was not receiving payments at the time of our review for 259 cases
recorded in SSA’s systems (92 no payment cases and 167 partial payment cases).
The 259 cases had a total of $11,971,511 in restitution, which included overpayments,
fines or penalties. SSA collected $713,422 of that amount, and $11,258,089 remained
outstanding. In 82 cases, active payments were being made to SSA at the time of our
review. For these cases, SSA had received $940,398 of the $3,871,813 restitution
owed by the 82 individuals at the time of our review, while $2,931,415 remained
outstanding.

According to the DoJ staff responsible for collecting court-ordered restitution, DoJ does
not discourage SSA’s collection efforts of the overpayments related to court-ordered
restitution cases. In fact, SSA staff reported to us that they recently have been notifying
DoJ staff that certain individuals ordered to pay restitution were receiving benefits and
that SSA could withhold the benefits to repay the related overpayment. According to
SSA staff, DoJ staff were glad to have SSA withhold the benefits since the DoJ staff
reported that they often found it difficult to get the convicted individuals to pay the
restitution.
Page 6 - The Commissioner


Coordination with DoJ

We coordinated with DoJ to reconcile its records with SSA’s recorded cases. DoJ
reported that 156 of the 488 cases we examined were not found in its debt collection
system. According to DoJ staff, the absence of a case in its debt collection system
signified the debt was not being pursued. When comparing the 156 records
unrecorded in DoJ’s system and the 147 cases unrecorded in SSA’s systems, we
determined that 53 of the records were not recorded in either DoJ or SSA systems.
These 53 cases are most at-risk of not being collected, since the two Federal agencies
that can initiate collection efforts did not have a record of the outstanding debt.

DoJ only reported aggregate data on the 332 cases in its records, so we were unable to
determine the status of DoJ’s collection actions. DoJ only provided aggregate data
since individual case records are assigned to FLU staff who maintain case details
locally. DoJ also stated that SSA may pursue collection of overpayments, regardless of
any action DoJ may take.

Guidance for Recovery of Overpayment After Fraud Conviction

Our review found that POMS lacked updated procedures on how to process and collect
overpayments related to court-ordered restitution. As a result, there were
inconsistencies in the recording and processing of cases. For example, some staff
recorded the related overpayments under the debtor’s SSN, while others used the
victim’s SSN. Some staff provided a cross-reference to the victim’s SSN; others did
not.

Additionally, POMS, dated October 30, 1998, indicates that SSA staff are responsible
for tracking repayments in ROAR, and, under specific circumstances, alerting IB/IS of
payment delinquencies. 7 However, IB/IS no longer existed as a Government entity as
of August 2000, and SSA staff were not formally notified to whom they should forward
delinquent cases. Also, POMS does not provide for a central SSA point of contact for
court-ordered restitution cases.




7
    SSA, POMS, GN 02201.055.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Based on the results of our review, we concluded that SSA should improve its efforts to
effectively manage the collection of overpayments related to court-ordered restitution.
To ensure the effectiveness of these collections, we recommend that SSA:

1. Record and pursue collection efforts, in coordination with DoJ, of overpayments
   related to court-ordered restitution that are not recorded in SSA’s systems.

2. Pursue collection efforts, in coordination with DoJ, for the recorded overpayments
   related to court-ordered restitution that are not currently being paid to SSA.

3. Establish coordinated collection efforts with DoJ to ensure all overpayments related
   to court-ordered restitution cases are being actively pursued.

4. Update POMS guidance for the collection of overpayments related to court-ordered
   restitution. The guidance should designate the transfer of function from IB/IS to
   another SSA staff component. The guidance should also clearly designate a central
   receiving point within SSA for staff to disseminate restitution cases to ensure that
   SSA staff receive all Forms OI-68 that are sent from the OIG.

5. Inform staff of IB/IS dissolution and train staff to uniformly record and process
   court-ordered restitution cases.

AGENCY COMMENTS

SSA agreed with our recommendations (see Appendix D).




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Flow Chart of Processing and Collecting Overpayments Related to
             Court-Ordered Restitution

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
DoJ        Department of Justice
FLU        Financial Litigation Unit
FY         Fiscal Year
IB/IS      Integrity Branch/Integrity Staff
MBR        Master Beneficiary Record
OI         Office of Investigations
OIG        Office of the Inspector General
PHUS       Payment History Update System
POMS       Program Operations Manual System
ROAR       Recovery of Overpayments Accounting and Reporting
SSA        Social Security Administration
SSID       Supplemental Security Income Display
SSN        Social Security Number
SSR        Supplemental Security Record
                                                                      Appendix B

Scope and Methodology
We received 700 records from the Office of the Inspector General’s (OIG) Office of
Investigations (OI) for individuals who were court-ordered to pay $24,309,652 in
restitution to the Social Security Administration (SSA) during Fiscal Year (FY) 2004, as
reported in our March 2005 Semiannual Report to Congress. We reviewed 488 of the
700 records, totaling $22,925,610, which had a court-ordered restitution amount of
$10,000 or more, as these represented about 70 percent of the cases and over
94 percent of the dollar amounts. In this way, we were able to concentrate our
resources on the cases with the most funds in question.

•   We researched the Program Operations Manual System (POMS) to determine SSA
    guidance for recording and processing court-ordered restitution cases.

•   We interviewed SSA staff to determine processing procedures for the overpayments
    related to court-ordered restitution cases. A flow chart of the processing procedures
    is found in Appendix C.

•   We coordinated with OI to confirm that court-ordered restitution cases were
    forwarded to SSA staff.

•   We validated the data by reconciling them to SSA and Numident data contained in
    the Master Beneficiary Record (MBR), which includes the Recovery of
    Overpayments Accounting and Reporting (ROAR), and the Payment History Update
    System (PHUS) for Title II cases; and the Supplemental Security Record (SSR),
    which includes the Supplemental Security Income Display (SSID) for Title XVI
    cases.

•   Upon determining the data validity, we determined whether there was any indication
    of a debt, overpayment, fraud, OIG involvement, or any other indication of a
    court-ordered restitution in SSA’s systems—the MBR, which includes the ROAR; the
    PHUS; and the SSR, which includes the SSID. We primarily categorized cases as
    being either unrecorded or recorded.

•   We further categorized recorded cases by whether no repayment had ever been
    made; any repayment had been made, but were not currently being made; or
    repayments were actively being made at the time of our review, October 2006.

•   We collaborated with DoJ to determine the number of court-ordered restitution
    cases in their records and the status of collection efforts.




                                           B-1
The entity audited was the Division of Operations Analysis and Customer Service,
Customer Service Branch within the Office of Public Service and Operations Support,
under the Deputy Commissioner for Operations. Division of Operations staff concurred
with our overall audit methodology and confirmed our case review results.

We performed our audit between December 2005 and October 2006 in New York. Our
audit was performed in accordance with generally accepted government auditing
standards.




                                        B-2
                                                                                                                                     Appendix C

      Flow Chart of Processing and Collecting Overpayments Related to
                         Court-Ordered Restitution
Social Security
Administration
receives Form
    OI-68*.

                                         Is Supplemental           If yes, input case
                     Title XVI                                                                                 Was payment
                                         Security Income            information into                                                    If yes, process
  Title II or      goes to Field                                                                                received in
                                             Display                      SSID.                                                             payment.
  Title XVI?          Office.                                                                                    response?
                                          (SSID) record              If no, establish
                                           established?              ROAR record.
                        Establish
Title II goes to      Recovery of
   Payment           Overpayments
    Service                                                                                                      If no, send
                     Accounting and
     Center.                                                                                                    second letter.
                        Reporting
                                           Examine case file      Set alert per
                     (ROAR) record.
                                               and send          court-ordered
                                          overpayment letter        restitution
                                          if one has not been      repayment
                                                  sent.             schedule.
                                                                                                               Was payment
                                                                                                                received in
                                                                                             If no,              response?
                                                                  At alert, are            report to
                                                                payments being             Integrity
                                                                     made?              Branch/Integrity
                                                                                            Section.


                                                                                                            If no, is it a Legally
                                                                  If yes, reset                            Defined Overpayment
                                                                      alert.                                                             If no, write-off.
                                                                                                              per the Program
                                                                                                            Operations Manual
                                                                                                                  System?


                                                                 At alert, are
                                                                  payments
                                                                 being made?                                   If yes, report to
                                                                                                                credit bureau,              Process
                                                                                                             garnish wages, and            payments
                                                                                                              report to Internal           received.
                                                                                                              Revenue Service.


*Form OI-68 Report of Court Ordered Restitution/Judgment Form
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      February 15, 2007                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Collection of Court-Ordered Restitution" (A-02-06-26019)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S (SSA) COLLECTION OF COURT-
ORDERED RESTITUTION”(A-02-06-26019)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of SSA’s collection of court-ordered restitution.

We appreciate the report addressing SSA’s role and scope of authority in collecting court-ordered
restitution. We note that the recommendations reflect the joint responsibility between SSA and
the Department of Justice (DoJ) in the collection of court-ordered restitution. We would also
like to point out that we believe the OIG report overstates the amount that individuals owe SSA
in restitution because it includes fines and penalties, payments which SSA lacks the authority to
collect. We support the audit recommendations, however collection efforts will be subject to
competing funding priorities.

Recommendation 1

SSA should record and pursue collection efforts, in coordination with DoJ, of overpayments
related to court-ordered restitution that are not recorded in SSA’s systems.

Comment

We agree. We will investigate those items OIG identified as not being posted to SSA records,
post the items not previously on our records and will follow established policies and procedures
in pursuing recovery of the overpayments. However, based on the information in this report, we
cannot be sure that the identified 147 missing items are truly not posted to our records. We can
only confirm that they are not posted to the defendant’s Social Security number (SSN). SSA
posts all court ordered restitutions under the victim’s record. These items may be correctly
posted to the SSN under which the fraud took place, and we believe that the list of 147 items
includes cases which had been recorded or had remittances. We request that OIG provide an
updated list of unposted cases for a clean up operation which we will undertake.

To assist with posting from the Form OI-68, Report of Court-Ordered Restitution/Judgment
Form, we propose that the form be revised to reposition the information on the defendant to
Section 2. The claimant information currently in Section 2 should be included in the Section 1
header. This revision would assist with subsequent forwarding of misrouted forms. We also
request that OIG ensure accurate completion of the OI-68. Regions have reported receipt of
forms with omissions of critical data, such as monthly payment amount and the first payment due
date.

OIG stated that 53 records were unrecorded in SSA’s systems and not recorded in DoJ debt
collection records. It would be helpful if OIG could determine if the items were ever transmitted
to SSA and if not, why not?




                                               D-2
Recommendation 2

SSA should pursue collection efforts, in coordination with DoJ, for the recorded overpayments
related to court-ordered restitution that are not currently being paid to SSA.

Comment

We agree. See our response to Recommendation 1.

Recommendation 3

SSA should establish coordinated collection efforts with DoJ to ensure all overpayments related
to court-ordered restitution cases are being actively pursued.

Comment

We partially agree. SSA does not pursue collection while DoJ has jurisdiction. OIG serves as
the middleman, ensuring that both parties have sufficient information to carry out their respective
missions. DoJ has not in the past been amenable to collection efforts being taken by SSA on
these cases, and that includes any efforts to withhold the overpayment from ongoing benefits. At
a debt collection conference sponsored by the Department of Treasury, a spokesperson from DoJ
indicated that when a debt was referred to them by an agency, they had jurisdiction and the
agency should not pursue collection. According to DoJ, SSA’s responsibility at that point was to
monitor the collection efforts. However, we do agree that it is a good practice to notify DoJ staff
when individuals receive benefits that could be withheld to recover the related overpayment. We
will work to include guidance in the Program Operations Manual System (POMS) revisions.

Recommendation 4

SSA should update POMS guidance for the collection of overpayments related to court-ordered
restitution. The guidance should designate the transfer of function from Integrity
Branch/Integrity Staff (IB/IS) to another SSA staff component. The guidance should also clearly
designate a central receiving point within SSA for staff to disseminate restitution cases to ensure
that SSA staff receive all Forms OI-68 that are sent from the OIG.

Comment

We agree. The Agency has plans to update the POMS by September 30, 2007.

Recommendation 5

SSA should inform staff of IB/IS dissolution and train staff to uniformly record and process
court-ordered restitution cases.




                                                D-3
Comment

We agree. After the POMS revision (see response to recommendation #4), this information can
be included in a POMS transmittal training session delivered through Interactive Video
Teletraining.




                                            D-4
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, 212-264-5295

   Victoria Abril, Audit Manager, 212-264-0504

Acknowledgments

In addition to those named above:

   Denise Molloy, Program Analyst-in-Charge, 212-264-4215

   Christine Hauss, Program Analyst, 212-264-5826

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-06-26019.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
